NO. 20-219

In the
Supreme Court of the United States
JANE CUMMINGS,

Petitioner,
v.
PREMIER REHAB KELLER, P.L.L.C.,

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
BRIEF IN OPPOSITION OF RESPONDENT
PREMIER REHAB KELLER, P.L.L.C.

BRIAN SCOTT BRADLEY

COUNSEL OF RECORD

WATSON, CARAWAY,
MIDKIFF & LUNINGHAM, LLP

306 W. 7TH STREET, SUITE 200
FORT WORTH, TX 76102
(817) 870-1717
SBRADLEY@WATSONCARAWAY.COM

COUNSEL FOR RESPONDENT

SEPTEMBER 24, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
RESTATEMENT OF QUESTION PRESENTED
In determining the appropriateness of remedies
under Spending Clause statutes, this Court held in
Barnes v. Gorman, 536 U.S. 181 (2002) that a funding
recipient is generally on notice that it is subject not only
to those remedies explicitly provided in the relevant
legislation, but also to those remedies traditionally
available in suits for breach of contract. The question
presented is:
Is the “personal contract” exception to the general
rule that emotional distress damages are not recoverable for breach of contract sufficient to put a federal
funding recipient on notice that it may be liable for
emotional distress damages?

ii
CORPORATE DISCLOSURE STATEMENT
Premier Rehab Keller, P.L.L.C. has no parent
corporation, and no public company owns 10% or
more of its stock.

iii
TABLE OF CONTENTS
Page
RESTATEMENT OF QUESTION PRESENTED ...... i
CORPORATE DISCLOSURE STATEMENT ............ ii
TABLE OF AUTHORITIES ....................................... v
INTRODUCTION ....................................................... 1
COUNTER-STATEMENT OF THE CASE ................ 2
REASONS TO DENY THE PETITION ..................... 3
I.

FEDERAL LAW HOLDS THAT FEDERAL FUNDING RECIPIENTS ARE ONLY ON NOTICE OF
REMEDIES TRADITIONALLY AVAILABLE IN
SUITS FOR BREACH OF CONTRACT, AND
EMOTIONAL DISTRESS DAMAGES ARE NOT
TRADITIONALLY AVAILABLE ............................... 3
A. There Is No Conflict Between the Circuits
as to the Requirement That a Federal
Funding Recipient Must Be “On Notice”
of Remedies “Traditionally Available” in
Order to Be Liable Under the Rehabilitation Act and the Affordable Care Act ..... 3
B. There Is No Conflict Among the Circuits
as to the General Rule of Contract Law
That Emotional Distress Damages Are
Not Recoverable .......................................... 7

II. THE COMMON LAW “PERSONAL CONTRACT”
EXCEPTION DOES NOT APPLY TO THE FACTS
OF THIS CASE AND DOES NOT PUT RESPONDENT ON NOTICE THAT IT MAY BE LIABLE FOR
EMOTIONAL DISTRESS DAMAGES FOR ALLEGED
DISCRIMINATION ................................................ 8

iv
TABLE OF CONTENTS – Continued
Page
III. THE FACTS OF SHEELY AND THIS CASE SUPPORT THE CONCLUSION THAT THE PERSONAL
CONTRACT EXCEPTION WILL NOT APPLY ......... 11
IV. THE FIFTH CIRCUIT CORRECTLY DECIDED
THE QUESTION PRESENTED IN THE APPEAL ..... 13
A. The Fifth Circuit Correctly Relied Upon
Barnes v. Gorman and the Common
Law of Contracts to Determine That
Emotional Distress Damages Were Not
Available to Ms. Cummings as Such
Damages Were Not Traditionally Available in Breach of Contract Actions .......... 13
B. That Petitioner Would Be Left Without
“Any Available Remedy” If Her Petition
Is Denied Does Not Justify an Expansion
of Those Limited Circumstances Under
Which a Funding Recipient Is on Notice
of Its Liability for Damages Under the
Rehabilitation Act and Affordable Care
Act ............................................................. 15
CONCLUSION.......................................................... 16

v
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Arlington Cent. Sch. Dist. Bd. of Educ. v.
Murphy, 548 U.S. 291 (2006) ........................... 5, 6
Barnes v. Gorman,

536 U.S. 181 (2002) .................................... passim

Bell v. Hood,

327 U.S. 678 (1946) ............................................. 4

Cummings v. Premier Rehab Keller, P.L.L.C.,

948 F.3d 673 (5th Cir. 2020) ..................... 6, 7, 14

Davis v. Monroe County Bd. of Ed.,

526 U.S. 629 (1999) ............................................ 15

Franklin v. Gwinnett Cty. Pub. Sch.,

503 U.S. 60 (1992) ......................................... 4, 15

Fry v. Napoleon,

137 S. Ct. 743 (2017) .......................................... 15

Gebser v. Lago Vista Indep. Sch. Dist.,

524 U.S. 274 (1998) ............................................... 4

Guardians Ass’n v. Civil Serv. Comm’n,

463 U.S. 582 (1983) ............................................... 5

Lamm v. Shingleton,

55 S.E.2d 810 (N.C. 1949) ................................... 9

Pennhurst State Sch. & Hosp. v. Halderman,

451 U.S. 1 (1981) ................................................. 4

Sheely v. MRI Radiology Network, P.A.,

505 F.3d 1173 (11th Cir. 2007) ................... passim

Stewart v. Rudner,

84 N.W.2d 816 (1957) ........................................ 10

vi
TABLE OF AUTHORITIES – Continued
Page

Sullivan v. O’Connor,

296 N.E.2d 183 (1973) ........................................ 10

STATUTES
Affordable Care Act .................................... 3, 8, 13, 15
Developmentally Disabled Assistance and
Bill of Rights Act .................................................. 4
Individuals with Disabilities Education Act.......... 5, 6
Rehabilitation Act of 1973 ................................ passim
OTHER AUTHORITIES
Restatement (Second) of Contracts (1981)....... passim

1

INTRODUCTION
Petitioner seeks review of the judgment below
on the basis that the Fifth Circuit’s decision squarely
conflicts with that of the Eleventh Circuit in Sheely
v. MRI Radiology Network, P.A., 505 F.3d 1173 (11th
Cir. 2007). Both circuits followed this Court’s direction
in Barnes v. Gorman, 536 U.S. 181 (2002) and concluded that a remedy is not “appropriate” unless
the federal funding recipient is “on notice,” and a
funding recipient is on notice of only those remedies
traditionally available for breach of contract. The
circuits also reviewed the common law of contracts,
particularly the Restatement (Second) of Contracts
§ 353, and recognized that the general (traditional)
rule at common law is that emotional damages for
breach of contract will not lie. Barnes does not prescribe
any further inquiry to determine an appropriate
remedy, leading to the conclusion that emotional
damages are not recoverable.
Petitioner would draw attention to a “personal
contract” exception to the general rule prohibiting the
recovery of emotional distress damages in contract.
Petitioner offers many examples of personal contracts,
those in which “serious emotional disturbance was a
particularly likely result.” The facts of the instant
case compare poorly to the typical personal contract
case, and it is a hard-sell that Respondent should have
foreseen that emotional distress was a particularly
likely result from a series of phone calls between its
staff and Petitioner. It should be an even taller order
for Petitioner to convince this Court that the existence
of an uncommon exception to the traditional rule should

2
put Respondent on notice that emotional distress
damages are an appropriate remedy for Respondent’s
alleged breach of its Medicare agreement. As things
stand, the narrow question presented to the court is:
Is the “personal contract” exception to the general rule
that emotional distress damages are not recoverable
for breach of contract sufficient to put a federal funding
recipient on notice that it may be liable for emotional
distress damages? The Court should answer the
question presented in the negative, deny the Petition
and leave intact the Fifth Circuit’s judgment in favor
of Respondent.

COUNTER-STATEMENT OF THE CASE
In her Amended Complaint, Petitioner alleged that
she suffered from deafness and albinism, the latter
disability which impaired her ability to read written
text. (Am. Compl. ECF No. 11, ¶ 12). She also alleged
that her visual impairment rendered notes, lip-reading
and gestures ineffective means of communication.
(Id., ¶ 17). Petitioner’s Amended Complaint and her
Petition did not allege that her visual impairment
impacted her ability to see the gestures of an ASL
interpreter, Petitioner’s accommodation of choice.
Rather, the clear implication of Petitioner’s various
pleadings at trial and on appeal is that Petitioner
contends that she could see an ASL interpreter’s
gestures, but not the gestures of the Premier Rehab
staff.
Petitioner further alleged that, over the course
of multiple telephone conversations with Respondent’s

3
staff: (1) Respondent agreed to treat Petitioner, with
or without an interpreter (Am. Compl. ECF No. 11,
¶ 16); (2) Respondent offered accommodations and
auxiliary aids for effectively communicating with deaf
patients (Id.); and (3) Petitioner insisted on the specific accommodation of an ASL interpreter (Id., ¶ 17,
19, 20). Following these calls, Petitioner did not
schedule a therapy appointment at Respondent’s
facility but instead sought treatment elsewhere. (Id.,
¶ 17).

REASONS TO DENY THE PETITION
I.

FEDERAL LAW HOLDS THAT FEDERAL FUNDING
RECIPIENTS ARE ONLY ON NOTICE OF REMEDIES
TRADITIONALLY AVAILABLE IN SUITS FOR BREACH OF
CONTRACT, AND EMOTIONAL DISTRESS DAMAGES
ARE NOT TRADITIONALLY AVAILABLE.
A. There Is No Conflict Between the Circuits as
to the Requirement That a Federal Funding
Recipient Must Be “On Notice” of Remedies
“Traditionally Available” in Order to Be Liable
Under the Rehabilitation Act and the Affordable Care Act.

The case before the Court involves Petitioner Jane
Cummings’ attempt to recover emotional distress
damages under The Rehabilitation Act and The Affordable Care Act. Neither statute expressly authorizes
Petitioner the relief she seeks, but this Court has
previously implied the existence of remedies that were
not specifically enumerated in the statute. “[F]ederal

4
courts may use any available remedy to make good
the wrong done.” Bell v. Hood, 327 U.S. 678, 684 (1946).
This implied power had limits in Spending Clause
litigation, and any “available” remedy became any
“appropriate” remedy. “The general rule, therefore, is
that absent clear direction to the contrary by Congress, the federal courts have the power to award
any appropriate relief in a cognizable cause of
action brought pursuant to a federal statute.” Franklin
v. Gwinnett Cty. Pub. Sch., 503 U.S. 60, 70-71 (1992).
While the Court was evaluating the availability
and appropriateness of implied remedies, the Court
was at the same time considering the subject of notice
to federal funding recipients. In Pennhurst State Sch.
& Hosp. v. Halderman, 451 U.S. 1 (1981), the Court
considered a claim for injunctive and monetary relief
for alleged violations of The Rehabilitation Act and
the Developmentally Disabled Assistance and Bill of
Rights Act. In discussing available remedies, the Court
noted that “legislation enacted pursuant to the spending
power is much in the nature of a contract: in return
for federal funds, the States agree to comply with
federally imposed conditions.” Pennhurst State Sch.
& Hosp. v. Halderman, 451 U.S. 1, 17 (1981). Relying
upon this contract analogy, the Court concluded that
federal funding recipients must voluntarily and
knowingly accept the terms of the contract, further
noting, “There can, of course, be no knowing acceptance
if a State is unaware of the conditions or is unable to
ascertain what is expected of it.” Id. The Court reaffirmed this notice requirement in the context of
other Spending Clause statutes as well. See Gebser v.
Lago Vista Indep. Sch. Dist., 524 U.S. 274, 287 (1998);
Guardians Ass’n v. Civil Serv. Comm’n, 463 U.S. 582,

5
596 (1983) (“[T]he receipt of federal funds under typical
Spending Clause legislation is a consensual matter:
the State or other grantee weighs the benefits and
burdens before accepting the funds and agreeing to
comply with the conditions attached to their receipt.”).
The questions of what is an appropriate remedy
and what is adequate notice converged in the Court’s
decision in Barnes v. Gorman, 536 U.S. 181 (2002).
Barnes clarified that a remedy was “appropriate relief,”
only if the funding recipient was on notice that, by
accepting federal funding, it exposed itself to liability
of that nature. Id. at 187. A funding recipient is generally “on notice” of only those remedies explicitly
provided in the statute and those remedies traditionally available in suits for breach of contract. Id. The
Court determined that punitive damages were not an
appropriate remedy under The Rehabilitation Act, in
part because punitive damages were not normally
available for contract actions. Id. at 188.
Since Barnes, the Court has reaffirmed the importance of the notice principle in evaluating the appropriateness of remedies in Spending Clause litigation.
In Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy,
548 U.S. 291 (2006), the Court addressed the question
of the recovery of expert consultant fees under the
Individuals with Disabilities Education Act (IDEA).
The Court wrote:
Thus, in the present case, we must view the
IDEA from the perspective of a state official
who is engaged in the process of deciding
whether the State should accept IDEA
funds and the obligations that go with those
funds. We must ask whether such a state
official would clearly understand that one of

6
the obligations of the Act is the obligation to
compensate prevailing parents for expert
fees. In other words, we must ask whether
the IDEA furnishes clear notice regarding
the liability at issue in this case.

Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy, 548

U.S. 291, 296 (2006). In evaluating the sufficiency of the
notice provided, the Court rejected appellee’s argument
that Congress clearly intended for prevailing parents
to be compensated for expert fees, citing the United
States House of Representatives Conference Committee Report. “In a Spending Clause case, the key is not
what a majority of the Members of both Houses
intend but what the States are clearly told regarding
the conditions that go along with the acceptance of
those funds.” Id. at 304.
The foregoing recitation of case law could have
been written by the Eleventh Circuit or the Fifth
Circuit. Both have acknowledged that a remedy is not
“appropriate” unless the federal funding recipient is
“on notice.” See Cummings v. Premier Rehab Keller,
P.L.L.C., 948 F.3d 673, 676 (5th Cir. 2020); Sheely v.
MRI Radiology Network, P.A., 505 F.3d 1173, 1197
(11th Cir. 2007). The Circuits do not conflict on this
critical constitutional point, and this Court need not
grant the Petition to address well-settled law that
supports the Fifth Circuit’s decision.

7
B. There Is No Conflict Among the Circuits as
to the General Rule of Contract Law That
Emotional Distress Damages Are Not
Recoverable.

Barnes established the procedure for undertaking

a contract analysis: look at what is traditionally
available in contract cases. See Barnes, 536 U.S. at 187.

The Eleventh and Fifth Circuits both followed
the Court’s guidance in Barnes and first looked to the
general rule regarding the recoverability of emotional
distress damages in contract. The general rule at
common law is that emotional damages for breach of
contract will not lie. Cummings, 948 F.3d at 677;
Sheely, 505 F.3d at 1200. “Damages for emotional
disturbance are not ordinarily allowed. Even if they
are foreseeable, they are often particularly difficult
to establish and to measure.” RESTATEMENT (SECOND)
OF CONTRACTS § 353 (1981) cmt. a. Two “exceptional
situations” exist where emotional distress damages
are recoverable, only one of which pertains to the facts
of this case. This “personal contract” exception permits
the recovery of emotional distress damages when the
contract or the breach is of such a kind that serious
emotional disturbance was a particularly likely result.
Id. “Common examples are contracts of carriers and
innkeepers with passengers and guests, contracts for
the carriage or proper disposition of dead bodies, and
contracts for the delivery of messages concerning
death.” Id.
The Eleventh and Fifth Circuits agree that a
remedy is not appropriate unless the recipient is on
notice; to be on notice, that remedy must be one traditionally available for breach of contract. Barnes, 536
U.S. at 187. Emotional distress damages are generally

8
not available. See RESTATEMENT (SECOND) OF C ON TRACTS § 353. While exceptions to the general rule
exists, Barnes does not require that a court look any
further than the traditional rules of contract, and from
this the Court can conclude that emotional distress
damages are not recoverable. As the circuits do not
conflict as to their understanding of the federal law
regarding notice and the common law regarding
contracts, this Court should deny the Petition.
II.

THE COMMON LAW “PERSONAL CONTRACT” EXCEPDOES NOT APPLY TO THE FACTS OF THIS CASE
AND DOES NOT PUT RESPONDENT ON NOTICE THAT
IT MAY BE LIABLE FOR EMOTIONAL DISTRESS
DAMAGES FOR ALLEGED DISCRIMINATION.
TION

The conflict before this Court is narrower than
Petitioner has presented and may be appropriately
summarized as follows: Is the “personal contract”
exception to the general rule that emotional distress
damages are not recoverable for breach of contract
sufficient to put a federal funding recipient on notice
that it may be liable for emotional distress damages?
Petitioner’s argument that an exception to the general
rule is an adequate basis for notice is immediately
suspect. When Barnes spoke of what was appropriate
relief, Barnes spoke in terms of what was “general,”
“traditional” and “normal.” Barnes, 536 U.S. at 187188. Petitioner, on the other hand, contends that
Respondent is on notice of any available relief, and
thus she pleads for relief that is “exceptional” and
“personal.” An examination of the personal contract
exception will show that it is inapplicable to the facts
of this case and does not put Respondent on notice
that emotional distress damages are recoverable under
The Rehabilitation Act and Affordable Care Act.

9

Sheely acknowledged the general rule: emotional
distress damages are not available for contract. Rather
than accepting that a federal funding recipient would
ordinarily have no obligation or reason to know of
the limited exceptions to the general rule, Sheely
instead charged the defendant funding recipient with
knowledge of the exception for breach of a “personal
contract.” Sheely, 505 F.3d at 1201. In describing the
personal contract, the Eleventh Circuit wrote, “[T]he
contract is personal in nature and the contractual
duty . . . is so coupled with matters of mental concern
or solicitude, or with the sensibilities of the party
. . . [that] it should be known to the parties . . . that
[mental] suffering will result from its breach” Sheely,
505 F.3d at 1201 quoting Lamm v. Shingleton, 55
S.E.2d 810, 813 (N.C. 1949). Sheely offered multiple
examples of contracts in which the parties could be
expected to foresee that emotional distress was a
particularly likely result: carriers and passengers;
innkeepers and guests; employers and employees;
insurance carriers and insureds; lawyers and clients;
and homebuilders and homeowners. Sheely, 505 F.3d
1173, 1201 n.28.
The foregoing examples are distinguishable from
the case before this Court. Unlike Petitioner’s examples,
Respondent’s contract was with the federal government;
Petitioner was not a party to Respondent’s contract,
rather she was a third-party beneficiary.1 A lawyer
1 Sheely cited contracts between surgeons and patients as
examples of personal contracts for which emotional distress was
a particularly likely result of the breach. Although these examples
pertain to the provision of health care, they do not involve claims by
third-party beneficiaries of government reimbursement contracts;
the actionable contracts involved promises made by surgeons
directly to their patients. See Sullivan v. O’Connor, 296 N.E.2d

10
should be aware of a client’s sensibilities, and an
employer should anticipate an employee’s mental
concerns, and both should know of those situations in
which emotional distress was a particularly likely
result of a breach of a personal contract. In contrast,
Respondent would have no reason to foresee that emotional distress would be a particularly likely outcome of
contracting with the federal government. Respondent
was not acquainted with Ms. Cummings at the time
it contracted with Medicare; the same cannot be said
of the parties to the personal contracts that make up
the limited exception to the general rule.

Barnes held that federal funding recipients were
on notice of remedies traditionally available in contract
law. Petitioner seeks to have this Court hold that
funding recipients are on notice of not only those
remedies traditionally available, but also those remedies available in “exceptional situations.” A survey of
the typical “personal contract” case reveals that they
bear little resemblance to the facts of the transaction
before the Court. Respondent made no promises to
Petitioner, and Respondent can’t be said to have had
any constructive or actual knowledge of Petitioner’s
sensibilities and mental concerns at the time Respondent contracted with Medicare. Holding that a federal
funding recipient such as Respondent is “on notice”
that it is liable for emotional distress damages by
virtue of the personal contract exception conflicts with
Barnes. Moreover, no such personal contract exists
between Petitioner and Respondent which could be
used to justify such an exception and notice to Res183 (1973) (breach of contract for a botched nose-job); Stewart v.
Rudner, 84 N.W.2d 816 (1957) (breach of contract for failure to
perform a C-section).

11
pondent. The Court should deny the Petition due to
the personal contract exception’s poor fit with the facts
of this case.
III. THE FACTS OF SHEELY AND THIS CASE SUPPORT
THE CONCLUSION THAT THE PERSONAL CONTRACT
EXCEPTION WILL NOT APPLY.
Both Sheely and this case involve alleged discrimination in violation of The Rehabilitation Act.
Neither case resembles any of the examples of a
personal contract that Petitioner would use to justify
her attempts to reverse the Fifth Circuit. Sheely 's
determination that its defendant should have foreseen
that emotional distress was a particularly likely result
of its conduct should hold no sway here, as this Court
can easily distinguish the two cases on their facts. In
Sheely, the defendant’s employees physically prevented
Ms. Sheely from using her guide dog to assist her in
accompanying her minor son at his appointment at
defendant’s MRI facility. Sheely, 505 F.3d at 1178.
The facility refused to accommodate Ms. Sheely’s
disability based on the facility’s policy regarding
service animals. Id. at 1179-1180. Ms. Sheely’s incident
was not the first incident involving the defendant’s
service animal policy, but rather hers was the third
incident within the year and the second that required
the involvement of the police. Id. at 1180. The facts of
Sheely were such that the Eleventh Circuit could
have easily determined that the defendant MRI
facility, having enforced its “no animals policy” on
numerous prior occasions with negative consequences,
was aware that emotional distress was particularly
likely to result. Also, having met Ms. Sheely in person
and having assessed her disability before flatly refusing
to accommodate it, the defendant likely had an

12
awareness of Ms. Sheely and her mental concerns
and sensibilities that is completely missing in Ms.
Cummings’ case.
In contrast to Ms. Sheely’s interactions with the
MRI facility, Ms. Cummings only interacted with
Premier Rehab over the telephone. Where the Sheely
defendant refused to accommodate Ms. Sheely, Respondent offered accommodations and auxiliary aids
to Ms. Cummings and agreed to treat her, with or
without an interpreter. Ms. Cummings insisted on the
specific accommodation of an ASL interpreter and
sought treatment elsewhere. The foregoing facts do not
resemble those found in cases of personal contracts,
and these same facts do not even suggest such a degree
of contact that could or should acquaint Respondent
with Ms. Cummings’ sensibilities and mental concerns.
Further these facts do not completely support the
conclusion that discrimination occurred; the Court can
reasonably conclude from the undisputed facts that
Ms. Cummings was simply denied the accommodation
of her choice.
Petitioner flatly declared that the Eleventh Circuit
would have decided this case in Ms. Cummings’ favor,
but such declaration ignores significant differences
between the fact profile of personal contract cases,
the facts of Sheely and the facts of this case. Sheely
and this case differ from personal contract cases in that
both Ms. Sheely and Ms. Cummings are third-party
beneficiaries to a funding recipient’s contract with
Medicare. Whereas a funeral home director might be
expected to be aware of the emotional fragility of the
client sitting across the table from him, there would
be no similar justification to impute such knowledge
to federal funding recipients such as Respondent. The

13
difference between the facts before this court and the
facts of personal contract cases, and even the differences between the facts of this case and the facts
of Sheely, argue in favor of the Court denying the
Petition.
IV. THE FIFTH CIRCUIT CORRECTLY DECIDED
QUESTION PRESENTED IN THE APPEAL.

THE

A. The Fifth Circuit Correctly Relied Upon Barnes
v. Gorman and the Common Law of Contracts
to Determine That Emotional Distress Damages
Were Not Available to Ms. Cummings as Such
Damages Were Not Traditionally Available
in Breach of Contract Actions.
The Fifth Circuit reached the correct decision in
the case now before this Court. Ms. Cummings had
alleged that a few phone calls with Respondent’s
staff caused her to suffer emotional distress, and she
sought damages under The Rehabilitation Act and
Affordable Care Act. The Fifth Circuit followed the
Court’s roadmap in Barnes and asked: Are Petitioner’s
damages “traditionally available” for breach of contract?
Barnes, 536 U.S. at 187. Like Barnes, the Fifth Circuit
surveyed the common law of contracts and found its
answer: “Damages for emotional disturbance are not
ordinarily allowed.” RESTATEMENT (SECOND) OF CONTRACTS § 353 cmt. a. As Barnes did not prescribe any
further inquiry, the Fifth Circuit properly concluded
that Premier Rehab was not “on notice” that it was
liable for Ms. Cummings’ damages for emotional
distress because such damages were not traditionally
recoverable in suits for breach of contract.

14
As she did on appeal, Petitioner urges this Court
to hold that a funding recipient is on notice of not
only the general rule, but exceptions to the same. She
cites the “exceptional situations” of personal contracts.
Though usually reserved for contracts between two
parties, one of whom knows or should know of the
other’s sensitivities and mental concerns, Petitioner
would have the Court expand the exception to include
third-party beneficiaries of government spending contracts. Barnes didn’t even consider rare exceptions to
the general rule prohibiting punitive damages in contract to be worth discussing, much less as the basis
to expand the definition of notice.2 The Fifth Circuit
reached the same decision with respect to emotional
distress damages, emphasizing that the question was
not, does some rare exception to the general rule exist,
but rather, is the funding recipient on notice of its
liability for the damages in question. When the court
considered that the exception in question required
that serious emotional disturbance be particularly
likely, and this had rarely been addressed in the Fifth
Circuit (and never by this Court), the court concluded
that Respondent was not on notice of “such a rare
and narrow exception.”3 Cummings, 948 F.3d at 678.
2 Though never discussed in Barnes, there is an exception to
the general rule that punitive damages are not recoverable in
suits for breach of contract. “Punitive damages are not recoverable
for a breach of contract unless the conduct constituting the
breach is also a tort for which punitive damages are recoverable.”
RESTATEMENT (SECOND) OF CONTRACTS § 355.
3 Petitioner’s representation of this Court’s approval of a funding
recipient’s liability for emotional distress damages is overstated.
Petitioner cites four of the Court’s cases for the proposition that
“courts have regularly allowed victims of discrimination to seek
and recover [emotional distress] damages.” Petition at 14. One

15
B. That Petitioner Would Be Left Without “Any
Available Remedy” If Her Petition Is Denied
Does Not Justify an Expansion of Those
Limited Circumstances Under Which a Funding Recipient Is on Notice of Its Liability for
Damages Under the Rehabilitation Act and
Affordable Care Act.
Petitioner further argues that denying her Petition
deprives her of her “only available remedy.” Petition
at 27. As discussed above, the proper standard is not
what remedies are available, but rather what remedies
are appropriate. Barnes, 536 U.S. at 185; Franklin,
503 U.S. at 73. The conclusion to be drawn, and which
the Court in Barnes drew, is that an available remedy
(such as punitive damages) is not appropriate if it’s not
traditionally available in suits for breach of contract.
See Barnes, 536 U.S. at 187. While Petitioner bemoans
a categorical denial of recovery for emotional distress
damages in Spending Clause cases if the Court abides
by its holding in Barnes, Petitioner exaggerates the
effect such a holding will have. Barnes and the Fifth
Circuit’s decision preserve the ability of a claimant
to recover all relief traditionally available in suits
of Petitioner’s citations is to Barnes, discussed at length herein,
which did not analyze a claimant’s ability to recover emotional
distress damages in the face of the general rule prohibiting same.
Two other decisions, Franklin v. Gwinnett and Davis v. Monroe
Cty, were decided before Barnes announced its rule that
funding recipients were only on notice of traditionally available
contract remedies. The fourth opinion, Fry v. Napoleon, explicitly
acknowledged that it left unanswered the question of whether
the plaintiff could obtain relief for emotional distress damages.
Further none of these opinions even mention Petitioner’s essential
argument—that the personal contract exception puts a funding
recipient on notice that it is liable for emotional distress damages.

16
in contract while ensuring that funding recipients
are liable for only those remedies for which they are
on notice.
Petitioner owes her lack of appropriate remedies
to the tenuous nature of her claim, not to an allegedly
outrageous decision by the Fifth Circuit. Ms.
Cummings’ limited contact with Premier Rehab gave
rise to no claims for damages other than vague claims
of emotional distress. She has no remedy because
she arguably has no case. Petitioner’s prediction that
victims of sexual and racial harassment will be left
with no remedy is nothing more than a scare-tactic
to persuade this Court to deviate from well-settled
law. The Court should not imply notice to Respondent
of a remedy not traditionally available in contract just
to prevent Petitioner from going home empty-handed.

CONCLUSION
Petitioner attempts to present this case to the
court as a broad referendum on emotional distress
damages in Spending Clause cases. The actual question
presented is much narrower. The Eleventh and Fifth
Circuits do not dispute the rule of Barnes : a funding
recipient is only on notice of those remedies traditionally available in contract. The circuits do not argue over
the common law rule that emotional distress damages
are not available in contract. The point of contention
is what effect does the existence of an uncommon
exception allowing for the recovery of emotional distress
damages in cases of personal contracts have on Barnes’
notice rule. Petitioner would have this Court grant

17
the Petition in order to hold that the existence of an
exception to the traditional contract rule, even one
that seems out-of-step with the facts of the case at
hand, serves as notice to Respondent that it could be
liable to Petitioner for emotional distress damages. The
Court should conclude that Barnes’ focus on what is
traditional and normal in contract law, rather than
what is exceptional or personal, disposes of Petitioner’s
issue. To the extent this Court chooses to undertake
a fact-intensive inquiry, the facts of the instant case
bear little resemblance to the prototypical personal
contract case or even Sheely, and thus Respondent
cannot be expected to be on notice of an exception
which doesn’t apply to it. The Court should deny the
Petition and leave intact the judgment of the Fifth
Circuit affirming the District Court’s dismissal of
Petitioner’s claims.
Respectfully submitted,
BRIAN SCOTT BRADLEY

COUNSEL OF RECORD

WATSON, CARAWAY,
MIDKIFF & LUNINGHAM, LLP
306 W. 7TH STREET, SUITE 200
FORT WORTH, TX 76102
(817) 870-1717
SBRADLEY@WATSONCARAWAY.COM

COUNSEL FOR RESPONDENT
SEPTEMBER 24, 2020

